                                SOCIAL SECURITY
                                                                                Inspector General


                                       November 6, 2003

The Honorable Jo Anne B. Barnhart
Commissioner

Dear Ms. Barnhart:

In November 2000, the President signed the Reports Consolidation Act of 2000
(Public Law No. 106-531), which requires Inspectors General to provide a summary and
assessment of the most serious management and performance challenges facing Federal
agencies and the agencies’ progress in addressing them. This document responds to the
requirement to include this statement in the Fiscal Year (FY) 2003 Social Security
Administration's Performance and Accountability Report.

In February 2003, we identified 10 significant management issues facing the Social Security
Administration for FY 2003. Since that time, we have recategorized some issue areas. Our
assessment will focus on the following six challenges.

   •   Social Security Number                •   Budget and Performance
       Integrity and Protection                  Integration
   •   Management of the Disability          •   Critical Infrastructure Protection
       Process                                   and Systems Security
   •   Improper Payments                     •   Service Delivery

The areas formerly entitled Homeland Security, Social Security Number Integrity and Misuse
and Integrity of the Earnings Reporting Process have been combined under Social Security
Number Integrity and Protection. The Human Capital, E-Government, and Representative
Payee issue areas are now combined under the Service Delivery issue area. The Fraud Risk
issue area has been removed, and we have noted that each challenge contains elements of
fraud risk.

I congratulate you on the progress you have made during FY 2003 in addressing these
challenges. I look forward to working with you in continuing to improve the Agency’s ability to
meet its mission in an efficient and effective manner. Our assessment of the status of these six
management challenges is enclosed.

                                                    Sincerely,

                                                    James G. Huse, Jr


                                                    James G. Huse, Jr.

Enclosure

            SOCIAL SECURITY ADMINISTRATION             BALTIMORE MD 21235-0001
 Inspector General Statement
             on the
Social Security Administration’s
Major Management Challenges

           A-02-04-14034




         NOVEMBER 2003
                                    Mission
We improve SSA programs and operations and protect them against fraud, waste,
and abuse by conducting independent and objective audits, evaluations, and
investigations. We provide timely, useful, and reliable information and advice to
Administration officials, the Congress, and the public.

                                   Authority
The Inspector General Act created independent audit and investigative units,
called the Office of Inspector General (OIG). The mission of the OIG, as spelled
out in the Act, is to:

   Conduct and supervise independent and objective audits and
    investigations relating to agency programs and operations.
   Promote economy, effectiveness, and efficiency within the agency.
   Prevent and detect fraud, waste, and abuse in agency programs and
    operations.
   Review and make recommendations regarding existing and proposed
    legislation and regulations relating to agency programs and operations.
   Keep the agency head and the Congress fully and currently informed of
    problems in agency programs and operations.

  To ensure objectivity, the IG Act empowers the IG with:

   Independence to determine what reviews to perform.
   Access to all information necessary for the reviews.
   Authority to publish findings and recommendations based on the reviews.

                                     Vision
By conducting independent and objective audits, investigations, and evaluations,
we are agents of positive change striving for continuous improvement in the
Social Security Administration's programs, operations, and management and in
our own office.
           Social Security Number Integrity and Protection
In Fiscal Year (FY) 2003, the Social Security Administration (SSA) issued over 17 million
original and replacement Social Security number (SSN) cards. In FY 2003 SSA received
over $533 billion in employment taxes. Protecting the SSN and properly posting the wages
are critical to ensuring eligible individuals receive the full retirement, survivors and/or
disability benefits due them.

The SSN is the single most widely used identifier for Federal and State governments and
the private sector. It has become the de facto national identifier. Given its importance, the
possession of an SSN may allow criminals to steal identities and commit other criminal acts.
In fact, the lack of protection of the SSN has often led to identity theft and SSN misuse.
Being the immediate victim of SSN misuse and/or identity theft may cause an individual
years of difficulty and cost financial and commercial institutions a great deal of money. SSN
misuse may disguise a dangerous felon or a terrorist as a law-abiding citizen. The
possession of an SSN provides a criminal the identification and seeming legitimacy he or
she needs to go about nefarious business, perhaps putting dozens, hundreds, or even
thousands of lives in jeopardy.

The risks associated with SSN misuse and identity theft have led the Office of the Inspector
General (OIG) to develop plans for a SSN Integrity Protection Team (Team). The Team,
which will be created pending funding, combines the skills of auditors, investigators,
computer specialists, analysts and attorneys. In addition to supporting homeland security
initiatives, the Team will focus its efforts on identifying patterns of SSN misuse; locating
systemic weaknesses that contribute to SSN misuse; recommending legislative or other
corrective actions to ensure the SSN’s integrity; and pursuing criminal and civil enforcement
provisions for individuals misusing SSNs.

We believe that SSA can take some steps to better protect the integrity of the SSN.
Outstanding audit recommendations include the need to establish a reasonable threshold
for the number of replacement SSN cards an individual may obtain during a year and over a
lifetime and expedite systems controls that would interrupt SSN assignment when SSA
mails multiple cards to common addresses or when parents claim an improbably large
number of children. Additionally, SSA needs to continue to address identified weaknesses
within its information security environment to better safeguard SSNs and educate SSA staff
about counterfeit documents.

Another important part of ensuring the integrity of the SSN is the proper posting of earnings
reported under SSNs. If earnings information is reported incorrectly or not reported at all,
SSA cannot ensure all eligible individuals are receiving the correct payment amounts. In
addition, the Disability Insurance (DI) and Supplemental Security Income (SSI) programs
depend on this earnings information to determine (1) whether an individual is eligible for
benefits and (2) the amount of the disability payment. SSA spends scarce resources trying
to correct earnings data when incorrect information is reported.

While SSA has limited control over factors causing the volume of erroneous wage reports
submitted each year, there are still areas where SSA can improve its processes. Prior

IG Statement on SSA’s Major Management Challenges (A-02-04-14034)                       1
accomplishments may be enhanced by continuing to educate employers on reporting
criteria, identify and correct employer reporting problems, and encourage greater use of the
Agency’s SSN verification programs. SSA also needs to improve coordination with other
Federal agencies with separate, yet related, mandates. For example, SSA’s ability to
improve wage reporting is related to the Internal Revenue Service’s sanctioning of
employers for submitting invalid wage data and the Bureau of Citizenship and Immigration
Services’ procedures used by employers to verify eligible employees.

Another issue of concern is SSA’s Earnings Suspense File (ESF). The ESF is the Agency’s
record of annual wage reports that include wage earners’ names and SSNs that fail to
match SSA’s records. Between 1937 and 2000, the ESF grew to represent about
$374 billion in wages, which included about 236 million wage items with an invalid name
and SSN combination. As of July 2002, SSA had posted 9.6 million wage items to the ESF
for Tax Year (TY) 2000, representing about $49 billion in wages. We requested updated
information on the number and dollar amount of wage items posted to the ESF, but the
Agency has not provided them.

SSA Has Taken Steps to Address this Challenge
In our Management Advisory Report entitled Social Security Number Integrity: An Important
Link in Homeland Security, we concluded that it was critical for SSA to independently verify
the authenticity of documents presented by SSN applicants. SSA has taken steps to
address this issue, including the establishment of a task force to address the integrity and
protection of the SSN. One result of the task force’s efforts includes SSA’s decision to stop
assigning SSNs to non-citizens without first verifying the authenticity of their documents.
We are currently assessing the Agency’s compliance with these new procedures. SSA also
has tightened evidentiary requirements for SSN applicants. SSA requires mandatory
interviews for all applicants over the age of 12 for original SSNs and requires evidence of
identity for all children, regardless of age. SSA also established a pilot center in Brooklyn,
New York that focuses exclusively on enumeration of citizens and non-citizens.

SSA has taken steps over the past year to reduce the size and growth of the ESF. SSA has
expanded its Employee Verification Service to include an on-line service called the Social
Security Number Verification Service, which allows an employer to verify the name and SSN
of employees prior to reporting their wages to SSA. The Agency has also modified its
systems to help identify the number holder related to suspended items. Whereas previous
internal edits used only the name and SSN related to the suspended wage, SSA stated that
the new processes would use information stored on the earnings and benefits records.
Furthermore, SSA has established a performance goal to remove 30 million items from the
ESF by 2005.

SSA also increased the number of “no-match” letters—or educational correspondence—
sent to employers who submitted W-2s containing name and/or SSN information that did not
agree with SSA’s records. While we found this to be an encouraging step, SSA announced
a new policy change effective for TY 2002 wage reporting that reduced the number of “no-
match” letters sent to employers. As a result of this change, SSA estimates that it will send
129,000 letters to employers for TY 2002, or about 820,000 fewer letters than were sent for
TY 2001.

IG Statement on SSA’s Major Management Challenges (A-02-04-14034)                        2
                   Management of the Disability Process
SSA needs to improve critical parts of the disability process—determining disabilities, the
accuracy of disability payments, and the integrity of the disability programs. In January
2003, the General Accounting Office (GAO) added the modernizing of Federal disability
programs including SSA’s to its 2003 high-risk list.

Fraud is an inherent risk in SSA’s disability programs. Some unscrupulous people view
SSA’s disability benefits as money waiting to be taken. A key risk factor in the disability
program is individuals who feign or exaggerate symptoms of illness to become eligible for
disability benefit payments. Another key risk factor in SSA’s disability programs is the
monitoring of medical improvements for disabled beneficiaries to ensure that individuals
who are no longer disabled are removed from the disability program.

Over the last several years, SSA has tested several improvements to the disability
determination process as a result of concerns about the timeliness and quality of its service.
The disability improvements combine initiatives that have been tested and piloted over the
last few years and include all levels of eligibility determination—beginning with State
Disability Determination Services (DDS) and going through the hearings and appeals
processes. To date, SSA’s initiatives have shown some progress in making improvements
to the disability determination process. In FY 2003, average processing time was 97.1 days
for initial disability claims, 344 days for hearings, and 294 days for decisions on appeals of
hearings. In FY 2000, average processing time was 102 days for initial disability claims,
297 days for hearings, and 505 days for decisions on appeals of hearings.

SSA also needs to improve the accuracy of its benefit payments. During FY 2003, we
informed SSA that a significant number of disabled DI beneficiaries continued to receive
benefits despite having earnings that should have resulted in benefit suspension or
termination. As a result of this weakness, we estimated that SSA did not assess
overpayments totaling approximately $791 million for 45,620 disabled beneficiaries.

SSA Has Taken Steps to Address this Challenge
SSA continues to focus on improving the disability process. The Commissioner announced
short-term decisions regarding the disability process which included: pursuing the expansion
of the Single-Decision Maker authority nationwide, ending the requirements for the claimant
conference in sites testing the prototype disability process, evaluating the elimination of the
reconsideration level of the claims process nationwide, making additional improvements to
the hearings process, and implementing an Electronic Disability System by 2004. According
to SSA, the Electronic Disability System is expected to improve processing times, reduce
costs, improve productivity, lower backlogs, and improve the Agency’s capacity to better
handle growing workloads. In September 2003, the Commissioner announced long-term
initiatives to address the Agency’s disability related challenges, which she stated are
predicated on the successful implementation of the Electronic Disability System.

According to GAO, SSA’s cost-benefit analysis of the Electronic Disability System may have
underestimated the costs, while overstating the corresponding benefits. Specifically, GAO

IG Statement on SSA’s Major Management Challenges (A-02-04-14034)                        3
reported that the cost-benefit analysis did not fully consider the costs associated with certain
critical information technology infrastructure such as scanning, imaging,
telecommunications, disaster recovery, and on-site retention and destruction of source
documents.

Another area in which SSA has taken an active role is addressing the integrity of its
disability programs through the Cooperative Disability Investigations (CDI) units. The focus
of the CDI process is to obtain evidence that may prevent fraud in SSA’s disability
programs. SSA’s Office of Operations, Office of Disability Programs, and Office of Disability
Determinations, along with the OIG, manage the CDI process. There are currently 18 CDI
units operating in 17 States. In FY 2003, CDI units saved SSA approximately $100 million
by identifying fraud or similar fault in initial and continuing claims in SSA’s disability
programs.




IG Statement on SSA’s Major Management Challenges (A-02-04-14034)                         4
                                Improper Payments
Improper payments are defined as payments that should not have been made or were
made for incorrect amounts. Examples of improper payments include inadvertent errors,
payments for unsupported or inadequately supported claims, payments for services not
rendered, or payments to ineligible beneficiaries. The risk of improper payments increases
in programs with (1) a significant volume of transactions, (2) complex criteria for computing
payments, and/or (3) an overemphasis on expediting payments. Since SSA is responsible
for issuing over $400 billion in benefit payments per year under the Old-Age, Survivors and
Disability Insurance (OASDI) and SSI programs to over 50 million individuals, SSA is at-risk
of making significant improper payments. Considering the volume and amount of payments
SSA makes each month, even the slightest error in the overall process can result in millions
of dollars in over- or underpayments.

The President and Congress have expressed interest in measuring the universe of improper
payments within the Government. Specifically, in August 2001, the Office of Management
and Budget (OMB) published the FY 2002 President’s Management Agenda, which
included a Government-wide initiative for improving financial performance. In
November 2002, the Improper Payments Information Act of 2002 (Public Law No. 107-300)
was enacted.

SSA and the OIG have had on-going discussions on improper payments—on such issues
as detected versus undetected improper payments and avoidable overpayments versus
unavoidable overpayments which are outside the Agency’s control and a “cost of doing
business.” In August 2003, OMB issued specific guidance to SSA to only include avoidable
overpayments in the Agency’s improper payments estimate because these payments could
be reduced through changes in administrative actions. Unavoidable overpayments that
result from legal or policy requirements are not to be included in SSA’s improper payment
estimate. In accordance with the Improper Payments Information Act and OMB’s specific
guidance, SSA is required to estimate its annual amount of improper payments and report
this information in its Performance and Accountability Report for FYs ending on or after
September 30, 2004. OMB will use this information while working with SSA to establish
goals for reducing improper payments for each program.

One of the ways SSA measures payment accuracy is through its stewardship report. The
stewardship review measures payment accuracy based on non-medical eligibility factors.
SSA’s stewardship report showed the OASDI accuracy rate was 99.87 percent for FY 2002.
This accuracy rate translates to an expected $588.6 million in OASDI overpayments.
However, SSA reported actual OASDI overpayments that were newly discovered in
FY 2002 to be $1.6 billion, which included overpayments for benefits paid in FY 2002 as
well as benefits paid before FY 2002 but that were discovered as overpayments in FY 2002.
Further, over each of the last 5 years, SSA has identified and reported in its financial
statements over $700 million more in overpayments than what the Agency’s payment
accuracy rate would reflect.

In September 2003, the OIG prepared an issue paper on improper payments—where we
analyzed overpayments from SSA, other Federal agencies, and private sector disability

IG Statement on SSA’s Major Management Challenges (A-02-04-14034)                       5
insurers. To continue our work in this area, we will initiate a comprehensive and statistically
valid review in FY 2004 to quantify the amount of undetected overpayments in SSA’s
disability programs. Additionally, preliminary results from one of our audits at the end of
FY 2003 show significant overpayments related to earnings by disabled beneficiaries went
undetected by SSA.

SSA Has Taken Steps to Address this Challenge
SSA has been working to improve its ability to prevent over- and underpayments by
obtaining beneficiary information from independent sources sooner and/or using technology
more effectively. In this regard, SSA has initiated new computer matching agreements,
obtained on-line access to wage and income data, and implemented improvements in its
debt recovery program. Additionally, working with SSA, we have helped the Agency reduce
improper payments to prisoners and fugitive felons. These efforts continue.




IG Statement on SSA’s Major Management Challenges (A-02-04-14034)                         6
                    Budget and Performance Integration
This area encompasses SSA’s efforts to provide timely, useful, and reliable data to assist
internal and external decisionmakers in effectively managing Agency programs, as well as
both evaluating performance and ensuring the validity and reliability of performance,
budgeting, and financial data.

To effectively meet its mission, manage its programs, and report on its performance, SSA
needs sound performance and financial data. Congress, the general public, and other
interested parties also need sound and credible data to monitor and evaluate SSA’s
performance. The President’s Management Agenda has placed great emphasis on the
management and performance integration of Federal agencies. SSA has demonstrated a
strong commitment to the Government Performance and Results Act of 1993 (Public Law
No. 103-62) by developing strategic plans, annual performance plans and annual
performance reports. However, we believe SSA can further strengthen its use of
performance information by fully documenting the methods and data used to measure
performance and by improving its data sources.

Our audits of 18 performance measures in FY 2003 found the data for 13 of the measures
reviewed were reliable. We concluded that the data for five of the measures was found not
reliable. Although the majority of performance measures were determined to be reliable,
our audits found that SSA had inadequate documentation for 5 of its 18 performance
measures regarding the methods used to measure its performance. Considering the critical
role of the underlying data in all of SSA’s performance, financial, and data-sharing activities,
it is crucial that the Agency have clear processes in place to ensure the reliability and
integrity of its data.

We have previously noted that SSA needs to better link costs with performance. In its
FY 2003 Annual Performance Plan (APP), SSA acknowledged that costs are specifically
aligned with outcome measures for only a few activities. SSA needs to further develop a
cost accounting system to better link costs with performance. Since most goals are not
aligned by budget account, the resource, human capital, and technology necessary to
achieve many performance goals are not adequately described.

SSA Has Taken Steps to Address this Challenge
Our audits and reviews of SSA’s financial statements, annual performance plans and
reports, and individual performance measures disclosed that SSA has demonstrated
commitment to the production and use of reliable performance and financial management
data. For example, SSA has begun development of its new cost accounting system,
Managerial Cost Accountability System, and expects development to be completed in
FY 2005. SSA is the only Federal agency to receive the Certificate of Excellence in
Accountability Reporting for its Performance and Accountability Report every year since the
award program began for FY 1998. Additionally, OMB updated the President’s
Management Agenda scorecard in FY 2003, changing SSA’s status in Financial
Management from yellow to green—the highest rating.


IG Statement on SSA’s Major Management Challenges (A-02-04-14034)                          7
SSA has continually refined its annual performance plans to develop performance
measures that more accurately reflect performance and are more outcome-based. In
FY 2002, SSA revamped its Tracking Report used by Agency executives to manage key
workloads at the national level and made it available to all employees on-line. The revised
report tracks key performance measures and provides alerts as to whether performance is
significantly different from the goals established. In FY 2003, SSA released its FY 2004
APP and Revised Final FY 2003 APP to Congress. The plans reflect Commissioner
Barnhart’s priorities and describe performance levels the Agency is committed to reaching,
along with strategies for achieving them. This includes an alignment of strategic goals,
performance measures, and budget with major functional responsibilities.




IG Statement on SSA’s Major Management Challenges (A-02-04-14034)                      8
        Critical Infrastructure Protection and Systems Security
The information that SSA needs to conduct its mission is one of its most valuable assets.
The Agency is depending on technology to meet the challenges of increasing workloads
with fewer resources. A physically and technologically secure Agency information
infrastructure is a fundamental requirement. Growth in computer interconnectivity brings a
heightened risk of disrupting or sabotaging critical operations, reading or copying sensitive
data, and tampering with critical processes. Those who wish to disrupt or sabotage critical
operations have more tools and opportunities than ever.

SSA has been given responsibility to protect sensitive information for virtually every
American. This information includes earnings data the Agency uses to post earnings for
266 million wage items and medical information for millions of claimants filing for disability
benefits. Strong systems security and controls are essential to protecting SSA’s critical
information infrastructure. Although no significant event has occurred to date, the level of
risk is so great that should something occur, it could have national security implications.

Since 1997, SSA has had an internal controls reportable condition concerning its protection
of information. The reportable condition came about because of weaknesses in the
following areas:

    •    Technical Security Configuration         •   Physical Security and Security
         Standards                                    Policy for DDS Sites

    •    Security Monitoring Enforcement          •   Suitability

    •    Access Control                           •   Continuity of Operations


The most important of the issues listed above is access control. As long as access control
to SSA’s systems is not fully resolved, the reportable condition will remain. The resolution
of this reportable condition remains a priority for the Agency. To remedy this issue, SSA
needs to perform periodic reviews of everyone who has access to production data and
assign data ownership or responsibility.

SSA Has Taken Steps to Address this Challenge
SSA addresses critical information infrastructure and systems security in a variety of ways.
The Critical Infrastructure Protection work group, created in FY 2000, continually works
toward compliance with Presidential Decision Directive 63. Presidential Decision Directive
63 and other significant legislation, requires Federal agencies to identify and effectively
protect their critical systems and the information they hold. SSA has several other
components throughout the organization that handle systems security including the newly
created Office of Information Technology Security Policy within the Office of the Chief
Information Officer. SSA also routinely releases security advisories to its employees and
has hired outside contractors to provide expertise in this area.



IG Statement on SSA’s Major Management Challenges (A-02-04-14034)                          9
SSA has taken some specific steps to address the information protection issues raised in
prior years. Specifically SSA has:

   •   Issued final risk models to standardize platform security configuration settings for the
       Windows NT, Windows 2000, AS400, and Unix platforms;

   •   Established and implemented ongoing monitoring tools and procedures to ensure the
       consistency of platform security configuration standards for Windows NT, Windows
       2000, AS400, and Unix platforms;

   •   Established procedures for shifting and handling Agency workloads;

   •   Improved the security policy and procedures for DDS sites;

   •   Continued progress on the Standard Security Profile Project—a full scale comparison
       of Information Technology user access assignments to job responsibilities;

   •   Continued progress on the Dataset Naming Standards project including setting
       naming conventions and determining tools for compliance and enforcement;

   •   Strengthened physical security controls over SSA offices; and

   •   Established and implemented procedures for enhanced review of security violations
       on SSA’s mainframe computers.

SSA needs to take additional steps to address its access control weaknesses to remove the
reportable condition. Data ownership and individual responsibility must be assigned for the
different systems that control and monitor production data. Management must perform
periodic reviews of those who have access to sensitive data and ensure that individuals only
have access to the data necessary to complete their jobs. SSA is taking steps to address
the access control weaknesses, but there is not a specific schedule or timeframe for when
the weakness will be resolved.




IG Statement on SSA’s Major Management Challenges (A-02-04-14034)                        10
                                   Service Delivery
The Agency’s goal of “service” encompasses traditional and electronic services provided to
applicants for benefits, beneficiaries and the general public. It includes services to and from
States, other agencies, third parties, employers, and other organizations including financial
institutions and medical providers. SSA’s service related goal supports the delivery of
“citizen-centered” services through the use of “E-Government,” and therefore affords SSA
opportunities to advance the level of its service. Given the complexity of the Agency’s
programs, the billions of dollars in payments at stake, and the millions of citizens who rely
on SSA, the Agency is challenged to provide quality, timely, and appropriate services
consistently to its clients and the public-at-large. E-Government, Human Capital, and the
representative payee process pose significant challenges that impact service delivery.

By 2012, workloads are anticipated to increase to unprecedented volumes. Specifically, DI
beneficiaries are expected to increase by 35 percent. Additionally, it is estimated that
Old-Age and Survivors Insurance beneficiaries and SSI recipients will increase by 18 and
12 percent, respectively. Along with the workload increase, technological change will have
a profound impact on the public’s expectations, as well as SSA’s ability to meet those
expectations.

The President’s Management Agenda calls for improved service delivery through the use of
E-Government in creating more cost-effective and efficient ways to provide service to
citizens. The increased use of E-Government will be vital as the Agency addresses rising
workloads associated with the aging of the baby-boom generation.

Another challenge to service delivery is human capital. In January 2001, GAO added
strategic human capital management to its list of Federal programs and operations identified
as high-risk. The critical loss of institutional skills and knowledge, combined with greatly
increased workloads at a time when the baby-boom generation will require its services,
must be addressed by succession planning, strong recruitment efforts, and the effective use
of technology, as previously discussed. SSA estimates that during this decade over
28,000 of its approximately 65,000 Federal employees will retire and another 10,000 will
leave the Agency for other reasons. This is approximately 58 percent of the current
workforce. SSA expects that this “retirement wave” will affect its ability to deliver service to
the American public.

Another specific challenge in this area is the integrity of the representative payee process.
When SSA determines a beneficiary cannot manage his or her benefits, SSA selects a
representative payee who manages and solely uses the payments for the beneficiary’s
needs. There are about 5.3 million representative payees who manage about $44 billion in
benefits for approximately 6.7 million beneficiaries. SSA has experienced problems with the
selection, monitoring and accountability of representative payees. While representative
payees provide a valuable service for beneficiaries, SSA must continue to ensure
representative payees meet their responsibilities to the beneficiaries they serve.

Our audits of representative payees have shown that continued SSA oversight and
monitoring of representative payees are needed. Our audits identified deficiencies with

IG Statement on SSA’s Major Management Challenges (A-02-04-14034)                        11
representative payees' financial management and accounting for benefit receipts and
disbursements; vulnerabilities in safeguarding of beneficiary payments; poor monitoring and
reporting to SSA of changes in beneficiary circumstances; inappropriate handling of
beneficiary-conserved funds; and improper charging of fees. In addition, SSA needs to
improve its selection and monitoring of representative payees.

SSA Has Taken Steps to Address this Challenge

SSA has taken steps to address its E-Government, Human Capital, and representative
payee challenges. By 2005, SSA is expected to have 60 percent of its customer-initiated
services available through automated telephone services or the Internet. The Agency
recently began allowing the public to file DI claims through the Internet to help achieve its
service delivery goals. SSA expects to begin a nation-wide roll-out of its Electronic
Disability System in 2004. By 2007, over 80 percent of wage reports will be submitted and
processed electronically and employers will be able to identify and correct wage report
errors online. Further, SSA has increased the percentage of W-2s filed electronically from
42.5 percent in FY 2002 to 53.4 percent in FY 2003.

The Agency has taken additional steps to meet its future workforce needs. SSA has
developed plans and taken other actions to address the expected increase in its workloads
and the concurrent loss of staff due to retirement. Studies have been conducted to predict
staff retirements and attritions by year for major job positions. SSA has also developed a
document detailing how it envisions functioning in the future. Further, SSA planning
documents comply with the President’s Management Agenda and achieve expected near-
term results related to the strategic management of human capital.

The Agency has taken steps to address its representative payee process challenge. SSA
reports it has a number of initiatives underway to improve the selection of organizational
representative payees. The Agency also conducts site reviews for approximately
1,800 representative payees, which include fee-for-service representative payees, volume
representative payees (serving 100 or more beneficiaries) who are subject to expanded
monitoring, and individual representative payees serving 20 or more beneficiaries. These
reviews are performed on a triennial cycle.




IG Statement on SSA’s Major Management Challenges (A-02-04-14034)                       12
                                     Appendices
APPENDIX A – Acronyms

APPENDIX B – Related Office of the Inspector General Reports

APPENDIX C – Office of the Inspector General Contacts




IG Statement on SSA’s Major Management Challenges (A-02-04-14034)
                                                                       Appendix A

Acronyms
    APP                  Annual Performance Plan
    CDI                  Cooperative Disability Investigations
    DDS                  Disability Determination Services
    DI                   Disability Insurance
    ESF                  Earnings Suspense File
    FY                   Fiscal Year
    GAO                  General Accounting Office
    OASDI                Old-Age, Survivors and Disability Insurance
    OIG                  Office of the Inspector General
    OMB                  Office of Management and Budget
    SSA                  Social Security Administration
    SSI                  Supplemental Security Income
    SSN                  Social Security Number
    TY                   Tax Year




IG Statement on SSA’s Major Management Challenges (A-02-04-14034)
                                                                          Appendix B

Related Office of the Inspector General Reports
   Management Challenge Area, Report Title and                              Report
         Common Identification Number                                       Issued

                    Social Security Number Integrity and Protection

Congressional Response Report: Use and Misuse of the Social           August 22, 2003
Security Number (A-03-03-24048)
Congressional Response Report: Review of the Social Security          April 28, 2003
Number Feedback Pilot Project (A-03-03-13017)
Congressional Response Report: Social Security Administration         March 18, 2003
Benefits Related to Unauthorized Work
(A-03-03-23053)
The Social Security Administration’s Processing of Internal Revenue   March 18, 2003
Service Overstated Wage Referrals (A-03-02-22068)
Federal Agencies’ Control Over the Access, Disclosure and Use         March 11, 2003
of Social Security Numbers by External Entities
(A-08-03-13050)
Referring Potentially Fraudulent Enumeration Applications to the      March 3, 2003
Office of Inspector General (A-14-03-23052)
Review of the Social Security Administration Controls over the        December 30, 2002
Access, Disclosure, and Use of Social Security Numbers by
External Entities (A-08-02-22071)
Congressional Response Report: Status of the Social Security          November 18, 2002
Administration's Earnings Suspense File
(A-03-03-23038)

                         Management of the Disability Process

Use of Mental Consultative Examinations by the Wisconsin Disability   August 22, 2003
Determination Bureau (A-01-03-23090)
Congressional Response Report: Office of Hearings and Appeals         August 11, 2003
Administrative Law Judges’ Work Assignments in Greensboro and
Raleigh, North Carolina (Limited Distribution) (A-13-03-33089)
Evaluation of the Accelerated eDib System-Fourth Assessment           July 10, 2003
(A-14-03-23069)
Disability Determination Services’ Use of Volume Consultative         March 10, 2003
Examination Providers (A-07-02-12049)




IG Statement on SSA’s Major Management Challenges (A-02-04-14034)                         B-1
   Management Challenge Area, Report Title and                             Report
         Common Identification Number                                      Issued

                                   Improper Payments

Issue Paper: Detecting, Preventing, and Eliminating Unidentified     September 3, 2003
Overpayments in the Social Security Administration’s Disability
Program (Limited Distribution)
(A-09-02-22067)
Follow-up on Prior Office of the Inspector General Prisoner Audits   July 24, 2003
(A-01-02-12018)
Management Advisory Report: Title II Disability Insurance Benefits   July 23, 2003
With Workers’ Compensation Underpayment Errors Exceeding
$70,000 (A-04-02-21054)
Data Matching with Foreign Countries (A-13-03-23015)                 June 17, 2003
Follow-up Review of Old-Age, Survivors and Disability Insurance      June 13, 2003
Benefits Paid to Deceased Auxiliary Beneficiaries (A-01-03-13037)
Pending Workers’ Compensation: The Social Security Administration    June 6, 2003
Can Prevent Millions in Title II Disability Overpayments
(A-08-02-12064)
Use of State Bureaus of Vital Statistics Records to Detect           June 2, 2003
Unreported Marriages and Divorces (A-09-00-30059)
Management Advisory Report: The Social Security Administration’s     April 15, 2002
Workers’ Compensation Data Match with the State of Texas
(A-06-03-13022)
Analysis of Multiple, Unrelated Title II Payments to the Same Bank   March 3, 2003
Account (A-15-01-11033)
Congressional Response Report: The Social Security                   January 24, 2003
Administration’s Efforts to Process Death Reports and Improve its
Death Master File (A-09-03-23067)
Old-Age, Survivors and Disability Insurance and Supplemental         October 30, 2002
Security Income Payments to Deceased Beneficiaries and
Recipients (A-06-02-12012)
Congressional Response Report: Status of Corrective Actions          October 9, 2002
Taken in Response to Recommendations in Fiscal Years 1997
Through 2000 Payment Accuracy Task Force Reports
(A-13-01-21046)

                          Budget and Performance Integration

Summary of the Office of the Inspector General’s Reviews of the      September 3, 2003
Social Security Administration’s Performance Data
(A-02-03-13033)
Assessment of the Social Security Administration’s Performance       April 30, 2003
Measures (A-02-02-12050)
Performance Indicator Audit: Enumeration (A-02-02-11088)             April 30, 2003
Performance Indicator Audit: Paperless Electronic Access             March 18, 2003
(A-15-02-11084)


IG Statement on SSA’s Major Management Challenges (A-02-04-14034)                        B-2
   Management Challenge Area, Report Title and                               Report
         Common Identification Number                                        Issued
Performance Indicator Audit: Postentitlement Automation Rate           February 26, 2003
(A-15-02-32092)
Performance Indicator Audit: Appeals Council (Limited Distribution)    February 21, 2003
(A-15-02-11085)
Performance Indicator Audit: Customer Satisfaction                     February 4, 2003
(A-02-02-11082)
Performance Indicator Audit: Wage Reporting (A-15-02-11087)            January 28, 2003
Performance Indicator Audit: Electronic Access                         January 23, 2003
(A-15-02-11083)
Review of the Social Security Administration’s Fiscal Year 2003        January 7, 2003
Annual Performance Plan (A-02-02-12033)
Fiscal Year 2002 Financial Statement Audit (A-15-02-12075)             November 19, 2002
Inspector General’s Statement on the Social Security                   November 15, 2002
Administration’s Major Management Challenges
(A-02-03-13034)

               Critical Infrastructure Protection and Systems Security

Effective Use of Encryption Technology to Protect the Social           August 22, 2003
Security Administration’s Information Assets (Limited Distribution)
(A-14-02-12048)
Management Advisory Report: President’s Council on Integrity and       August 15, 2003
Efficiency Review of Critical Infrastructure Protection Program-
Cyber-based Infrastructure (Limited Distribution)
(A-14-03-23001)
Project Matrix Step Two: Analysis of the National Computer Center,     May 20, 2003
the Telecommunications Systems, and the Integrated Client
Database (Limited Distribution) (A-14-03-23008)
Management Advisory Report: Physical Security for the Social           December 24, 2002
Security Administration’s Laptop Computers, Cellular Telephones,
and Pagers (Limited Distribution) (A-14-02-32061)
Management Advisory Report: The Social Security Administration's       October 24, 2002
Oversight of the Disability Determination Services' Systems Security
(Limited Distribution)
(A-14-02-22026)
Audit of the Administrative Costs Claimed by the Kansas Disability     October 23, 2002
Determination Services (A-07-02-22003)

                                      Service Delivery

The Connecticut Mental Health Center, Money Management                 August 14, 2003
Program - An Organizational Representative Payee for the Social
Security Administration (A-13-03-23009)
Audit of Cottonwood, Incorporated - An Organizational                  August 4, 2003
Representative Payee for the Social Security Administration (Limited
Distribution) (A-07-03-13024)


IG Statement on SSA’s Major Management Challenges (A-02-04-14034)                          B-3
   Management Challenge Area, Report Title and                              Report
         Common Identification Number                                       Issued
Congressional Response Report: The Social Security                    July 24, 2003
Administration’s Policies and Procedures Concerning the Rural
Development Act of 1972 (A-13-03-23087)
Audit of the Community Counseling Centers of Chicago – A              July 15, 2003
Fee-for-Service Representative Payee for the Social Security
Administration (A-13-03-13002)
Management Advisory Report: Best Practices in Federal Paper           June 23, 2003
Records Management (A-04-03-13030)
Sierra Regional Center – An Organizational Representative Payee       June 20, 2003
for the Social Security Administration (A-09-03-23023)
Audit of Key Point Health Services, Inc. – An Organizational          May 29, 2003
Representative Payee for the Social Security Administration
(A-13-02-22014)
Audit of Atlantis Rehabilitation and Nursing Center - A               May 6, 2003
Representative Payee for the Social Security Administration
(A-02-03-13013)
The Social Security Administration’s Site Reviews of Representative   April 30, 2003
Payees (A-13-01-11042)
Screening Representative Payees for Fugitive Warrants                 March 14, 2003
(A-01-02-12032)
Internal Control Review of the Remittance and Disbursement of         March 5, 2003
Cash or Cash Equivalents at Social Security Administration Field
Offices (Limited Distribution) (A-15-01-21031)
Internal Control Review of the Remittance Process at the Social       March 3, 2003
Security Administration’s Mid-Atlantic Program Service Center
(Limited Distribution) (A-15-02-22001)
Evaluation of the Accelerated eDib System – Third Assessment          December 20, 2002
(A-14-03-13047)
Financial-Related Audit of the Harris County Guardianship Program     December 16, 2002
– An Organizational Representative Payee for the Social Security
Administration (A-04-02-12020)
Identifying Representative Payees Who Had Their Own Benefits          October 10, 2002
Suspended Under the Fugitive Provisions of Public Law 104-193
(A-01-02-12073)
Financial-Related Audit of the Washington State Department of         October 8, 2002
Social and Health Services - An Organizational Representative
Payee for the Social Security Administration (A-13-02-12010)




IG Statement on SSA’s Major Management Challenges (A-02-04-14034)                         B-4
                                                                        Appendix C

Office of the Inspector General Contacts
   Walter Bayer, Director                 Social Security Number Integrity and
                                          Protection

   Mark Bailey, Director                  Management of the Disability Process

   Rona Rustigian, Director               Improper Payments

   Fred Nordhoff, Director                Budget and Performance Integration

   Kitt Winter, Director                  Critical Infrastructure Protection and Systems
                                          Security

   Shirley Todd, Director                 Service Delivery



For additional copies of this report, please visit our web site at http://www.ssa.gov/oig or
contact the Office of the Inspector General’s Public Affairs Specialist at (410) 966-1375.
Refer to Common Identification Number A-02-04-14034.




IG Statement on SSA’s Major Management Challenges (A-02-04-14034)
                           DISTRIBUTION SCHEDULE

Commissioner of Social Security
Office of Management and Budget, Income Maintenance Branch
Chairman and Ranking Member, Committee on Ways and Means
Chief of Staff, Committee on Ways and Means
Chairman and Ranking Minority Member, Subcommittee on Social Security
Majority and Minority Staff Director, Subcommittee on Social Security
Chairman and Ranking Minority Member, Subcommittee on Human Resources
Chairman and Ranking Minority Member, Committee on Budget, House of
Representatives
Chairman and Ranking Minority Member, Committee on Government Reform and
Oversight
Chairman and Ranking Minority Member, Committee on Governmental Affairs
Chairman and Ranking Minority Member, Committee on Appropriations, House of
Representatives
Chairman and Ranking Minority, Subcommittee on Labor, Health and Human Services,
Education and Related Agencies, Committee on Appropriations,
 House of Representatives
Chairman and Ranking Minority Member, Committee on Appropriations, U.S. Senate
Chairman and Ranking Minority Member, Subcommittee on Labor, Health and Human
Services, Education and Related Agencies, Committee on Appropriations, U.S. Senate
Chairman and Ranking Minority Member, Committee on Finance
Chairman and Ranking Minority Member, Subcommittee on Social Security and Family
Policy
Chairman and Ranking Minority Member, Senate Special Committee on Aging
Social Security Advisory Board
                   Overview of the Office of the Inspector General


                                        Office of Audit
The Office of Audit (OA) conducts comprehensive financial and performance audits of the
Social Security Administration’s (SSA) programs and makes recommendations to ensure that
program objectives are achieved effectively and efficiently. Financial audits, required by the
Chief Financial Officers' Act of 1990, assess whether SSA’s financial statements fairly present
the Agency’s financial position, results of operations and cash flow. Performance audits review
the economy, efficiency and effectiveness of SSA’s programs. OA also conducts short-term
management and program evaluations focused on issues of concern to SSA, Congress and the
general public. Evaluations often focus on identifying and recommending ways to prevent and
minimize program fraud and inefficiency, rather than detecting problems after they occur.

                               Office of Executive Operations
The Office of Executive Operations (OEO) supports the Office of the Inspector General (OIG)
by providing information resource management; systems security; and the coordination of
budget, procurement, telecommunications, facilities and equipment, and human resources. In
addition, this office is the focal point for the OIG’s strategic planning function and the
development and implementation of performance measures required by the Government
Performance and Results Act. OEO is also responsible for performing internal reviews to ensure
that OIG offices nationwide hold themselves to the same rigorous standards that we expect from
SSA, as well as conducting investigations of OIG employees, when necessary. Finally, OEO
administers OIG’s public affairs, media, and interagency activities, coordinates responses to
Congressional requests for information, and also communicates OIG’s planned and current
activities and their results to the Commissioner and Congress.

                                    Office of Investigations
The Office of Investigations (OI) conducts and coordinates investigative activity related to fraud,
waste, abuse, and mismanagement of SSA programs and operations. This includes wrongdoing
by applicants, beneficiaries, contractors, physicians, interpreters, representative payees, third
parties, and by SSA employees in the performance of their duties. OI also conducts joint
investigations with other Federal, State, and local law enforcement agencies.

                              Counsel to the Inspector General
The Counsel to the Inspector General provides legal advice and counsel to the Inspector General
on various matters, including: 1) statutes, regulations, legislation, and policy directives
governing the administration of SSA’s programs; 2) investigative procedures and techniques;
and 3) legal implications and conclusions to be drawn from audit and investigative material
produced by the OIG. The Counsel’s office also administers the civil monetary penalty program.
